           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     BENEFICIARIES IN SUSPENDED
      PAYMENT STATUS PENDING
        THE SELECTION OF A
       REPRESENTATIVE PAYEE

    May 2006      A-09-05-25020




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   May 18, 2006                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Beneficiaries in Suspended Payment Status Pending the Selection of a Representative
        Payee (A-09-05-25020)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA) had
        adequate controls to ensure payments to beneficiaries1 were not improperly suspended
        pending the selection of a representative payee.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. SSA appoints representative payees
        to receive and manage these beneficiaries’ benefit payments. Generally, benefits
        should not be suspended when a beneficiary requires a representative payee and none
        is immediately available. Instead, SSA must initiate a search for a suitable
        representative payee and make direct payment to the beneficiary on an interim basis.2
        However, benefits must be suspended in those situations where direct payment is
        prohibited. SSA must suspend benefits to legally incompetent adults or beneficiaries
        under age 15. In addition, SSA may suspend benefit payments if the representative
        payee dies, no longer wants to be the representative payee, is no longer qualified to be
        a representative payee, or is a fugitive felon.3




        1
          We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
        Insurance beneficiaries and Supplemental Security Income recipients.
        2
            SSA Program Circular GS 04-01-OPB.
        3
            SSA, POMS, SM 03020.150.
Page 2 - The Commissioner

Benefits can be suspended for a maximum of 1 month while SSA is searching for a
suitable representative payee if direct payment to the incapable beneficiary would cause
“substantial harm.”4 The 1-month restriction does not apply to legally incompetent
adults or beneficiaries under age 15. For these cases, SSA policy states the selection
of a representative payee should be resolved as quickly as possible.

To ensure a representative payee is appointed, alerts are generated to the field office
for beneficiaries who have been in suspense for 1 month. When the alert is generated,
field offices should initiate direct payment to the beneficiary unless it is precluded by
law.5 Alerts are generated to field offices each month until benefits are reinstated.

RESULTS OF REVIEW
SSA needs to improve its controls to ensure benefit payments are (1) suspended only in
situations that are allowed by agency policies and (2) reinstated in a timely manner.
Specifically, SSA field office staff did not always determine whether direct payment was
appropriate and reinstate benefits as required.

As of September 2004, we estimate there were approximately 10,780 beneficiaries in
suspended status pending the selection of a representative payee (see Appendix C).
Based on a review of 539 of these beneficiaries, we estimate that approximately

•     $4.6 million in benefits was improperly suspended and should have been paid
      directly to about 1,700 beneficiaries;

•     $5.2 million in benefits payable to about 1,580 beneficiaries was not reinstated, as
      required, after 1 month; and

•     $5.7 million in benefits was withheld from about 2,220 children under age 15 for an
      average of 252 days.

In addition, SSA could not locate 11 of the 539 beneficiaries who remained in
suspended status pending the selection of a representative payee.




4
  “Substantial harm” means that direct receipt of funds by the beneficiary would cause physical or mental
injury to the beneficiary. SSA, POMS, GN 00504.105.
5
    SSA, POMS, GN 00504.110.
Page 3 - The Commissioner

    Beneficiaries in Suspended Status Pending the Selection of a Representative Payee
      5,280 – Benefit Suspension Was Correct           1,700 Beneficiaries Should Have Been Paid Directly




                                                               1,580 Beneficiaries Should Have Had
                                                               Benefits Reinstated After 1 month




                                                             2,220 Children’s Benefits Were
                                                             Suspended an Average of 252 Days



Benefit Payments Were Improperly Suspended

Of the 539 beneficiaries whose benefit payments were suspended pending the selection
of a representative payee, SSA should not have suspended benefits in 85 cases.
According to SSA policy, these 85 beneficiaries should have been paid directly while
SSA searched for a new representative payee. These beneficiaries were neither legally
incompetent nor under age 15. Furthermore, SSA had not determined that paying
these beneficiaries directly would cause them substantial harm. On average, their
benefits were suspended 162 days. As a result, these beneficiaries did not receive
$232,376 of their monthly benefit payments when they were payable. Based on these
results, we estimate SSA improperly suspended approximately $4,647,520 in benefit
payments to about 1,700 beneficiaries. Four of these beneficiaries were still in
suspended status pending the selection of a representative payee at the end of our
review.6

SSA Did Not Reinstate Benefits in a Timely Manner

Of the 539 beneficiaries whose benefit payments were suspended pending the selection
of a representative payee, we found that SSA did not appropriately reinstate benefits to
79 adult beneficiaries. According to SSA policy, their benefit payments should only
have been suspended for 1 month while a representative payee was sought. On
average, benefits to these 79 beneficiaries were suspended 175 days. As a result,
these beneficiaries did not receive $262,112 of their monthly benefit payments when
they were payable. Based on these results, we estimate that approximately $5,242,240
in benefit payments was improperly withheld from about 1,580 beneficiaries for longer
than 1 month. At the end of our review, 10 of these beneficiaries remained in
suspended status pending the selection of a representative payee.




6
    Our audit period ended in December 2005.
Page 4 - The Commissioner

Our interviews with SSA field office staff disclosed that they did not always consider
paying beneficiaries directly if a new representative payee could not be located within
1 month. Specifically, field office staff indicated that benefit payments in some cases
are suspended for more than 1 month because it is often difficult to locate a suitable
individual or organization who is interested in becoming a representative payee. Rather
than paying beneficiaries directly on an interim basis as SSA policy requires (unless
precluded by law), beneficiaries remained in suspended status until suitable
representative payees were found.

Benefits Were Not Reinstated to Children Under Age 15 in a Timely Manner

SSA policy prohibits directly paying beneficiaries under age 15. Instead, representative
payee development must be initiated when a beneficiary requires a representative
payee and none is immediately available. The 1-month rule does not apply to
beneficiaries under age 15. For these cases, SSA policy states the selection of a
representative payee should be resolved as quickly as possible.

Of the 196 children under age 15 included in our review, we found 111 had their benefit
payments suspended for more than 1 month. Benefit payments to the 111 children
were suspended for an average of 252 days. As a result, these beneficiaries did not
receive $285,817 in benefit payments when they were payable. Based on these results,
we estimate that about 2,220 children under age 15 had approximately $5,716,340 in
benefits withheld during their suspensions. At the end of our review, 21 children
remained in suspended status pending the selection of a representative payee.

                                                         Number of
               Number of Days Benefits Were Withheld    Beneficiaries
                           More than 120                    69
                             91 - 120                       10
                              61 - 90                       16
                              31 - 60                       16
                              Totals                        111

Of the 111 children who were suspended for longer than 1 month, we found that SSA
did not reinstate benefit payments to 15 beneficiaries who were under age 15 when
their benefits were suspended but who subsequently attained ages 15 and 16.
According to policy, SSA is required to make direct payment on an interim basis7 to
competent beneficiaries 15 years of age and older. At the end of our review, five of
these beneficiaries remained in suspended status pending the selection of a
representative payee.




7
    SSA, POMS, GN 00504.105.
Page 5 - The Commissioner

SSA Could Not Locate Beneficiaries Whose Benefits Had Been Suspended
Pending the Selection of a Representative Payee

SSA policy states that benefits will be suspended for “whereabouts unknown” if the field
office is unable to locate the beneficiary. When this occurs, the benefit suspension
reason must be changed from “suspended while representative payee is being
determined” to “whereabouts unknown.”8 In “whereabouts unknown” cases, no
payments should be made until the beneficiary is located and SSA has confirmed he or
she is still eligible for benefits.9

We found that SSA could not locate 11 beneficiaries because their whereabouts were
unknown. However, these beneficiaries remained in suspended status pending the
selection of a representative payee, and, as a result, unnecessary representative payee
development alerts were generated to the field offices each month.

CONCLUSION AND RECOMMENDATIONS
We found that SSA needed to improve its controls to ensure benefit payments were
(1) suspended only in situations allowed by agency policies and (2) reinstated in a
timely manner. Based on a review of 539 beneficiaries whose benefits were suspended
pending the selection of a representative payee, we estimate SSA improperly
suspended approximately $4.6 million in benefit payments to about 1,700 beneficiaries.
Furthermore, we estimate that SSA did not reinstate about $5.2 million in benefit
payments after 1 month, as required, to about 1,580 beneficiaries. Finally, we estimate
that SSA did not reinstate benefit payments of approximately $5.7 million to about
2,220 child beneficiaries under age 15 in a timely manner. Therefore, we recommend
that SSA:

1. Remind field office employees that competent adult beneficiaries should be paid
   directly unless doing so would cause the beneficiary substantial harm.

2. Remind field office employees that benefits must be reinstated after 1 month unless
   the beneficiary is legally incompetent, under the age of 15 years, or has an
   alcoholism or drug addiction condition.

3. Emphasize to the field office employees the importance of resolving representative
   payee development issues as quickly as possible.




8
    SSA, POMS, GN 00504.110.C.2.
9
    SSA, POMS, SM 03020.290.B and SI 02301.240.B.2.
Page 6 - The Commissioner

4. Remind field office employees that the benefit suspension reason must be changed
   from “representative payee development needed” to “whereabouts unknown” if all
   appropriate efforts to locate the beneficiary are unsuccessful.

AGENCY COMMENTS

SSA agreed with all of our recommendations. See Appendix D for the text of the SSA’s
comments.




                                       S
                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology, Results, and Estimates

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
MBR    Master Beneficiary Record

POMS   Program Operations Manual System

SSA    Social Security Administration

SSR    Supplemental Security Income Record
                                                                                Appendix B

Scope and Methodology
We obtained a data extract from single segments of the Master Beneficiary (MBR) and
Supplemental Security Records (SSR) 1 that contained 539 beneficiaries whose benefit
payments had been suspended pending the selection of a representative payee. Based
on our data extract, we estimate there were 10,780 beneficiaries whose benefits had
been suspended as of September 2004. We reviewed the 539 beneficiaries identified
by our data extract.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, U.S. Code, and the
    Social Security Administration’s (SSA) Program Operations Manual System;

•   interviewed SSA employees from the Western Program Service Center and several
    field offices, Office of Disability and Supplemental Security Income Systems, San
    Francisco Management and Operations Support and Center for Automation, and
    Office of Disability Income and Security Programs; and

•   extracted and reviewed 539 beneficiaries and obtained queries from SSA’s MBR,
    SSR, and Payment History Update System.

We determined the computer-processed data from the MBR and SSR were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and
achieve our audit objectives.

We performed our audit work in Richmond, California, between May 2005 and
January 2006. The entities audited were SSA’s Office of Disability and Income Security
Programs and Office of Operations. We conducted our audit in accordance with
generally accepted government auditing standards.




1
 Each segment of the MBR and SSR represents one-twentieth, or 5 percent, of the entire beneficiary
population.
                                                                                Appendix C

Sampling Methodology, Results, and Estimates
We obtained a data extract from single segments of the Master Beneficiary (MBR) and
Supplemental Security Record (SSR)1 that contained 539 beneficiaries whose benefit
payments had been suspended pending the selection of a representative payee. Based
on our data extract, we estimate there were 10,780 beneficiaries whose benefits had
been suspended as of September 2004.

We reviewed the 539 beneficiaries identified by our data extract. For each beneficiary,
we determined whether benefit payments had been properly suspended and reinstated
in a timely manner. For those beneficiaries whose benefit payments were improperly
suspended or not reinstated in a timely manner, we computed the total benefit
payments improperly withheld, including those withheld within the first month.

Of the 539 beneficiaries whose benefit payments were suspended pending the selection
of a representative payee, we found that

•   $232,376 in benefits was improperly suspended and should have been paid directly
    to 85 beneficiaries,

•   $262,112 in benefits payable to 79 beneficiaries was not reinstated, as required,
    after 1 month, and

•   $285,817 in benefits was withheld from 111 children under age 15 for an average of
    252 days.

Based on our audit results, we estimate that approximately

•   $4.6 million in benefits was improperly suspended and should have been paid
    directly to about 1,700 beneficiaries,

•   $5.2 million in benefits payable to about 1,580 beneficiaries was not reinstated, as
    required, after 1 month, and

•   $5.7 million in benefits was withheld from about 2,220 children under age 15 for an
    average of 252 days.




1
 Each segment of the MBR and SSR represents one-twentieth, or 5 percent, of the entire beneficiary
population.


                                                 C-1
The following tables provide the details of our audit results and estimates.

Table 1 – Estimates for Adult Beneficiaries (Age 15 and Older)

                      Average           Segment Results            Population Estimates
                     Number of
                       Days
                      Benefits      Number of      Benefits     Number of       Benefits
   Description       Suspended       Cases         Withheld      Cases          Withheld

Beneficiaries Not
Paid Directly           162            85          $232,376        1,700       $4,647,520
Benefits Not
Reinstated After
1 Month                 175            79          $262,112        1,580       $5,242,240



Total                                  164         $494,488        3,280       $9,889,760



Table 2 – Estimate for Child Beneficiaries (Under Age 15)

                      Average           Segment Results            Population Estimates
                     Number of
                    Days Benefits   Number of      Benefits     Number of       Benefits
   Description       Suspended       Cases         Withheld      Cases          Withheld
Benefits Not
Reinstated in a
Timely Manner           252           111          $285,817        2,220       $5,716,340




                                             C-2
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM


Date:   May 05, 2006                                                             Refer To: S1J-3

To:     Patrick P. O'Carroll, Jr.
        Inspector General

From:   Larry W. Dye /s/
        Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report, “Beneficiaries in Suspended Payment Status
        Pending the Selection of a Representative Payee” (A-09-05-25020)--INFORMATION


        We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
        and recommendations are attached.

        Please let me know if we can be of further assistance. Staff inquiries may be directed to
        Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

        Attachment:
        SSA Response




                                                      D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“BENEFICIARIES IN SUSPENDED PAYMENT STATUS PENDING THE SELECTION
OF A REPRESENTATIVE PAYEE” (A-09-05-25020)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of beneficiaries in suspended payment status pending the selection of a
representative payee (Rep Payee).

Recommendation 1

The Social Security Administration (SSA) should remind field office (FO) employees that
competent adult beneficiaries should be paid directly unless doing so would cause the
beneficiary substantial harm.

Comment

We agree. We will continue to work with the regional coordinators to communicate with FO
employees the need for paying a beneficiary directly until a new payee can be located. By mid-
May, 2006, we will issue an administrative message to the responsible FO components with
instructions as specified in this recommendation.

Recommendation 2

SSA should remind FO employees that benefits must be reinstated after 1 month unless
precluded by law (for example, legally incompetent or under age 15).

Comment

We agree. We will continue to work with the regional office and FO employees and remind
them of the need to reinstate benefits after one month. By mid-May, 2006, we will issue an
administrative message to the responsible FO components with instructions as specified in this
recommendation.

Recommendation 3

SSA should emphasize to the FO employees the importance of resolving Rep Payee development
issues as quickly as possible.

Comment

We agree. We will work with all SSA components on the best method to resolve Rep Payee
issues as quickly as possible. By mid-May, 2006, we will issue an administrative message to the
responsible FO components with instructions as specified in this recommendation.




                                              D-2
Recommendation 4

SSA should remind FO employees that the benefit suspension reason must be changed from
“representative payee development needed” to “whereabouts unknown” if all appropriate efforts
to locate the beneficiary are unsuccessful.

Comment

We agree. By mid-May, 2006, we will issue an administrative message to the responsible FO
components with instructions as specified in this recommendation. When we release the
administrative message, we will remind FO employees of the need to ensure that the proper code
is recorded.

[In addition to the comments above, SSA provided technical comments which have been
addressed, where appropriate, in this report.]




                                             D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Nicole Kato Sullivan, Auditor-in-Charge

   Timothy Meinholz, Senior Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-25020.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
